    Report No. D-2008-089                                      May 9, 2008




               Planning Armor Requirements for the
                Family of Medium Tactical Vehicles




This special version of the report has been revised to omit For Official Use Only information.
  Additional Copies

  To obtain additional copies of this report, contact the Secondary Reports
  Distribution unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                             ODIG-AUD (ATTN: Audit Suggestions)
                             Department of Defense Inspector General
                             400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
FMTV                  Family of Medium Tactical Vehicles
LSAC                  Low-Signature Armored Cab
LTAS                  Long-Term Armoring Strategy
ONS                   Operational Needs Statement
ORD                   Operational Requirements Document
                    Department of Defense Office of Inspector General
Report No. D-2008-089                                                       May 9, 2008
    (Project No. D2006-D000AE-0225.001)

                           Planning Armor Requirements for the
                            Family of Medium Tactical Vehicles

                                        Executive Summary

Who Should Read This Report and Why? Army officials responsible for generating,
processing, and approving acquisition requirements should read this report because it
discusses the Army’s use of the operational needs statements to determine and fill
theater-wide armor kit requirements rather than satisfying those requirements through the
Joint Capabilities Integration and Development System.

Background. The Family of Medium Tactical Vehicles (FMTV) program consists of
Light-Medium Tactical Vehicles, which are 2½-ton trucks, and Medium Tactical
Vehicles, which are 5-ton trucks. The FMTV program also includes complementary
trailers that supplement the vehicle fleet. In January 1996, the Army approved an
operational requirements document for Tactical Wheeled Vehicle Crew Protection Kits.
The FMTV Program Office, however, did not procure any armor crew protection kits
(armor kits) for medium tactical vehicles as specified in the operational requirements
document. In addition, the Army never established a program for armor kits for the
FMTV even though the operational requirements document for the FMTV included
armor kit protection as an objective and was approved by the Army Deputy Chief of Staff
G-3/5/7, in April 2003. From October 2003 through March 2005, the Army Deputy
Chief of Staff, G-3/5/7, validated theater commanders’ urgent needs for ∗ armor kits
for FMTVs. On August 16, 2007, the Army Deputy Chief of Staff, G-3/5/7, validated
theater commanders’ urgent needs for another * armor kits for medium tactical
vehicles ( * for the FMTV and * for the M900 medium tactical vehicle) to support the
force adjustment in the Central Command area of responsibility and to support the Global
War on Terror.

Results. The Army used the operational needs statement process effectively to identify,
validate, and fund theater commander armor kit urgent needs to support the Global War
on Terror because the Army had not completed establishing armor kit requirements
through the Joint Capabilities Integration and Development System process. Army
Training and Doctrine Command personnel began the Joint Capabilities Integration and
Development System process in May 2005. However, because they had not completed
the process, the Army was not able to immediately distribute armor kits to support the
increase in the number of troops in January 2007. Further, because they had not
completed the process, Army Force Management Support Agency staff did not add armor
kit requirements to the basis-of-issue plan and table of organization and equipment for
the FMTV. Therefore, the Army needs to expedite the completion and approval of the
capability documents for the FMTV, add armor requirements to the basis-of-issue plan
and table of organization and equipment for FMTVs, and complete an analysis for future

∗
    For Official Use Only information omitted.
distribution of armor kits to enable the Army to more timely fill future warfighter
requirements. (See the Finding section of the report for the detailed recommendations.)

The Army had adequate internal controls over the operational needs statement process,
which resulted in the identification and filling of armor kit requirements for FMTVs.
However, the Army should have initiated and expedited completion of the Joint
Capabilities Integration and Development System process after the initial identification
of the urgent need for armor kits for FMTVs in 2003.

Management Comments and Audit Response. We received comments from the
Director, Capabilities Integration, Prioritization, and Analysis, responding for the Army
Deputy Chief of Staff, G-3/5/7; the Deputy Director Soldier, Maneuver and Sustainment
Systems, responding for the Assistant Secretary of the Army (Acquisition, Logistics, and
Technology); the Director, Internal Review and Audit Compliance, responding for the
Commander, Army Training and Doctrine Command; and the Deputy Commander, U.S.
Army Force Management Support Agency.

The Director, Capabilities Integration, Prioritization, and Analysis agreed with the
recommendations to expedite the completion and approval of the capability documents
for the FMTV, add armor requirements to the basis-of-issue plan and table of
organization and equipment for FMTVs, and complete an analysis for future distribution
of armor kits to enable the Army to more timely fill future warfighter requirements. The
Deputy Director, Soldier, Maneuver and Sustainment Systems stated that his office
would support the Army Deputy Chief of Staff, G-8, in the development of distribution
plans for the armor kits.

The Director, Internal Review and Audit Compliance concurred with the
recommendation to complete a capabilities development document or a capability
production document for armor kit requirements for the FMTVs. She stated that the
Army Training and Doctrine Command will include protection and armoring
requirements in all tactical wheeled vehicle requirements documents as part of its Long-
Term Protection Strategy. She also stated that the Command will convert the 2003
FMTV Operational Requirements Document into Joint Capabilities Integration and
Development System documentation that will include armoring and other protection
requirements as part of the protection key performance parameter. The Deputy
Commander, U.S. Army Force Management Support Agency concurred with the
recommendation to update the basis-of-issue plan, but suggested a revision of the
recommendation for clarity. We agreed with the suggestion and revised the
recommendation accordingly. The management comments we received were responsive
to the recommendations. See the Finding section of this report for a discussion of the
management comments and the Management Comments section of this report for the
complete text of the comments.

The Army Deputy Chief of Staff, G-8, did not provide comments on the draft report
issued February 11, 2008. Therefore, we request that Army Deputy Chief of Staff, G-8,
comment on this final report by June 9, 2008.




                                            ii
Table of Contents

Executive Summary                                                                i

Background                                                                      1

Objectives                                                                      4

Review of Internal Controls                                                     5

Finding
     Planning for Family of Medium Tactical Vehicle Armor Needs                  6

Appendixes
     A. Scope and Methodology                                                   16
         Prior Coverage                                                         17
     B. Glossary                                                                19
     C. Management Comments on Report and Audit Response                        22
     D. Report Distribution                                                     25

Management Comments
     U.S. Army Deputy Chief of Staff, G-3/5/7                                   27
     Assistant Secretary of the Army (Acquisition, Logistics, and Technology)   33
     U.S. Army Training and Doctrine Command                                    34
     U.S. Army Force Management Support Agency                                  37
Background
           This report is the second of two reports on the overall management of the
           Family of Medium Tactical Vehicles (FMTV). This report addresses the
           Army’s planning to fulfill armor kit requirements for the FMTV and other
           medium tactical vehicle models being used to support the Global War on
           Terror. The first report addressed the Army’s conditional acceptance and
           first inspection acceptance of FMTVs.

           The FMTV program is a major Defense acquisition program that comes
           under the management oversight of the Program Executive Officer for
           Combat Support and Combat Service Support at the TACOM Life Cycle
           Management Command.1 The program executive officer’s mission is to
           develop, acquire, field, and sustain the soldier and ground systems for the
           warfighters by integrating effective and timely acquisition, logistics, and
           cutting-edge technology. The Project Manager Tactical Vehicles is
           responsible for managing the FMTV program and reports to the program
           executive officer. The Army Acquisition Executive is the milestone decision
           authority for the program. Research, development, test, and evaluation, and
           procurement funds for the FMTV program total approximately $21 billion to
           acquire 83,185 vehicles by FY 2022. The program entered the production
           phase of the acquisition process in August 1995.

           Family of Medium Tactical Vehicle Variants. The FMTV program
           consists of Light-Medium Tactical Vehicles, which are 2½-ton trucks,
           Medium Tactical Vehicles, which are 5-ton trucks, and companion trailers.
           The vehicles have component commonality and various body styles for
           special combat, combat support, and combat service support organizational
           missions. The FMTV is a series of trucks based on a common chassis and
           consists of cargo, tractor, van, wrecker, load handling system, and dump
           truck variants.

           Joint Capabilities Integration and Development System. Normally, the
           Army Training and Doctrine Command fulfills warfighter equipment
           requirements through the Joint Capabilities Integration and Development
           System. The Joint Capabilities Integration and Development System process
           supports the statutory requirements of the Joint Requirements Oversight
           Council to validate and prioritize joint warfighting requirements. The
           primary objective of the Joint Capabilities Integration and Development
           System process is to ensure the joint warfighter receives the capabilities
           required to successfully execute the mission assigned to them. The Joint
           Capabilities Integration and Development System process is initiated through
           the development of a capabilities-based assessment, which is documented in
           the following capabilities documents.




1
    Referred to in previous DoD Inspector General reports as the Tank-automotive and Armaments
    Command.



                                                  1
                   •    An initial capabilities document contains the capability shortfalls
                        in the existing weapon system and possible solutions to those
                        shortfalls.

                   •    A capabilities development document contains the technical
                        performance criteria of the weapon system that meets the
                        performance criteria specified in the initial capabilities document.

                   •    A capability production document describes the actual
                        performance of the weapon system that will go into production
                        and must be validated and approved by the Joint Requirements
                        Oversight Council before a production decision program review.

           The initial capabilities document, the capabilities development document,
           and the capability production document replaced the operational
           requirements document when the Joint Capabilities Integration and
           Development System process was implemented in 2003.

           Operational Requirements for Armor. In January 1996, the Army
           approved an operational requirements document (ORD) for the Tactical
           Wheeled Vehicle Crew Protection Kit. The armor kit is designed to protect
           crew members from small arms fire, artillery and mortar fire, mines,
           submunitions, and improvised explosive devices. Government
           Accountability Office Report No. GAO-06-160, “Several Factors Limited the
           Production and Installation of Army Truck Armor during Current Wartime
           Operations,” March 2006, reported that the Army developed the ORD in
           response to operations in Haiti, Rwanda, and Somalia. The ORD contained a
           requirement for 2,000 armor kits for medium and heavy tactical wheeled
           vehicles. Of the 2,000 truck armor kits, 500 were for the FMTV. However,
           the Army did not fulfill the acquisition of 500 truck armor kits for the
           FMTV. The report stated that Army officials did not fulfill the ORD
           requirement because a need for armor kits in Army operations after Somalia
           did not materialize until the operations in Iraq. In addition, Army officials
           advised the Government Accountability Office that the Army did not have
           funding available to fully meet the 1996 requirements for armor kits due to
           the Army’s other higher funding priorities. The report stated that, as a
           consequence, Army units initially went into Iraq with less protective
           capability than they might have if the Army had procured the armor kits
           specified in the 1996 Tactical Wheeled Vehicle Crew Protection Kit ORD.

           Operational Needs Statement Process for Armor Kits. Army warfighters
           deployed to Iraq and other Central Command locations in support of the
           Global War on Terror used an operational need statement (ONS) to identify
           an urgent need for armor kits for FMTVs. ONS requests start at the unit
           level. The ONS requests are endorsed by theater commanders and forwarded
           up the organizational chain of command to the Army Central Coalition
           Forces Land Command, G-3/5/7, for theater-level review and endorsement.
           The requests are then forwarded to the Army Deputy Chief of Staff, G-3/5/7,2
           for validation and the Army Deputy Chief of Staff, G-8, for funding.


2
    The Army Deputy Chief of Staff, G-3/5/7, was formerly the Army Deputy Chief of Staff for
    Operations (G-3).



                                                  2
           If an urgent need is determined to be theater-wide instead of unit specific,
           staff at the Army Central Coalition Forces Land Component Command,
           G-3/5/7, stated that they request that units identify their requirements to
           Army Central Coalition Forces Land Component Command, G-3/5/7, staff.
           Army Central Coalition Forces Land Component Command, G-3/5/7, staff
           then prepare a consolidated ONS and forward it to the Army Deputy Chief of
           Staff, G-3/5/7, for validation and the Army Deputy Chief of Staff, G-8, for
           funding.

           Urgent Need for Armor Protection. In October 2003, the Army Deputy
           Chief of Staff, G-3/5/7, validated an urgent need for 272 armor kits for
           FMTVs in support of Operation Iraqi Freedom. In July 2004 and March
           2005, Army Central Coalition Forces Land Component Command, G-3/5/7,
           staff stated that they prepared theater-wide ONSs for ∗ armor kits for
           FMTVs and ∗ armor kits for M900 series medium tactical vehicles.

           In February 2004, the Deputy Commander, TACOM Life Cycle Management
           Command approved a justification and approval for other than full and open
           competition to procure bolt-on armor kits for the FMTV from Radian, Inc.
           The justification and approval stated that Radian had already designed an
           armor kit and had developed a subcontractor base. Using this justification,
           the procuring contracting officer at the Command awarded contract orders
           from March 2004 through January 2005 for 1,822 armor kits totaling $98.2
           million to meet theater commander needs.

           In August 2005, the TACOM Principal Assistant Responsible for Contracting
           approved justification and approvals for other than full and open
           competition3 to purchase low-signature armored cabs (LSACs) from Stewart
           and Stevenson Tactical Vehicle Systems. The justification and approvals
           stated that procurement of LSACs was more desirable than the bolt-on armor
           kits because they weighed less, could be upgraded with appliqué armor to
           increase crew protection, had air conditioning, and had a faster install time.
           Further, the justification and approvals stated that Stewart and Stevenson
           Tactical Vehicle Systems designed and developed the LSAC and was the
           only source able to produce LSACs that met mission requirements. From
           July 2004 through September 2005, the procuring contracting officer
           awarded contract orders to Stewart and Stevenson Tactical Vehicle Systems
           for 2,060 LSACs totaling $185.2 million. In addition, the Project Manager
           Tactical Vehicles stated that the contracting officer had procured 3,006 armor
           kits for installation on M900 predecessor medium tactical vehicles.

           The Project Manager Tactical Vehicles stated that FMTV armor kit
           production was stopped at 3,882 (1,822 and 2,060) because FMTV armor kit
           production had exceeded the operational requirement of ∗ armor kits that
3
    TACOM Life Cycle Management Command staff used the “unusual and compelling urgency”
    clause in section 2304(c)(2), title 10, United States Code (10 U.S.C. 2304(c)(2)) as implemented by
    Federal Acquisition Regulation (FAR) 6.302-2(a) and “Only one responsible source and no other
    supplies or services will satisfy agency requirements” 10 U.S.C. 2304(c)(1) as implemented by FAR
    6.302-1 to initiate the contracts for the armor kits before formal validation of the operational needs
    statements.
∗
    For Official Use Only information omitted.


                                                     3
           was validated in operational needs statements submitted through
           March 2005.

           Additional Armor Kit Requirements to Support Force Adjustments in
           the Central Command Area of Responsibility. On August 16, 2007, the
           Army Deputy Chief of Staff, G-3/5/7, validated a need for a total of
             * 4 additional armor kits for medium tactical vehicles to support force
           adjustments in the Central Command area of responsibility. See the
           “Operational Needs Statements for Armor Kits” paragraph of the Finding for
           further details on the validation and delivery of armor kits to support the
           increase in the number of troops.

           Armor Kit Contracts to Support Force Adjustment Requirement. To
           fulfill the requirement for the ∗ armor kits for medium tactical vehicles,
           the procuring contracting officer initially awarded an undefinitized contract
           order to Stewart and Stevenson Tactical Vehicle Systems on February 28,
           2007, to procure 248 LSACs for FMTVs. On August 30, 2007, the contract
           order was definitized for $16.8 million with an estimated completion date of
           October 31, 2007. On March 1, 2007, the procuring contracting officer
           awarded another undefinitized contract order to Stewart and Stevenson
           Tactical Vehicle Systems for an additional 197 LSACs for FMTVs. On
           August 23, 2007, the contract order was definitized for $19.5 million with an
           estimated completion date of December 31, 2007. The Army Deputy Chief
           of Staff, G-8, Focused Logistics Division staff stated that the remaining
           requirement for 565 armor kits for FMTVs would be filled with spare and
           pre-positioned FMTV armor kits and refurbished M900 series medium
           tactical vehicles.


Objectives
           Our overall audit objective was to evaluate the Army armor kit requirements
           process and determine whether an adequate number of armor kits was
           procured or being procured to satisfy user requirements to support the Global
           War on Terror. In addition, we evaluated actions being taken by the Army to
           meet its future armor kit requirements. See Appendix A for a discussion of
           the scope and methodology and prior coverage related to the audit objective.


Review of Internal Controls
           We reviewed the Army’s internal control procedures for implementing the
           ONS process and for identifying and filling armor kit requirements for
           medium tactical vehicles. The Army had adequate internal controls over the
           operational needs statement process, which resulted in the identification and
           filling of armor kit requirements for FMTVs from October 2003 through

4
     ∗ of the ∗ armor kits were for FMTVs; the remaining ∗ armor kits were for the M900 series
    medium tactical vehicles.
∗
    For Official Use Only information omitted.



                                                 4
December 2007. However, the Army should have initiated and completed
the Joint Capabilities Integration and Development System process after
theater commanders identified the urgent need for armor kits in 2003.
Instead, the Army began implementing the Joint Capabilities Integration and
Development System process in 2005 through the development of the
functional area analysis and the functional needs analysis. The Army began
developing the draft functional solution analysis in 2007 to update the armor
protection requirements and armor kit numbers identified in the 1996
operational requirements document to support the eventual preparation of a
capability document for armor kits for medium tactical vehicles.




                                  5
Planning for Family of Medium Tactical
Vehicle Armor Needs
                    The Army used the operational needs statement process effectively to
                    identify, validate, and fund theater commander armor kit urgent needs
                    to support the Global War on Terror because the Army had not been
                    completed establishing armor kit requirements through the Joint
                    Capabilities Integration and Development System process. This
                    condition occurred because the Army Training and Doctrine
                    Command did not finalize its armoring strategy for FMTVs through
                    the Joint Capabilities Integration and Development System until
                    November 2007. Army Training and Doctrine Command personnel
                    began the Joint Capabilities Integration and Development System
                    process in May 2005. However, because they had not completed the
                    process, the Army was not able to immediately distribute armor kits
                    to support the increase in the number of troops in January 2007. In
                    addition, by not completing the process, Army Force Management
                    Support Agency staff did not add armor kit requirements to the basis-
                    of-issue plan and the table of organization and equipment for medium
                    tactical vehicles.


Policy on Generating Requirements and Issuing Equipment
           Chairman of the Joint Chiefs of Staff Instruction 3170.01F, “Joint
           Capabilities Integration and Development System,” May 1, 20075; Army
           Regulation 70-1, “Army Acquisition Policy,” December 31, 2003; and Army
           Regulation 71-9, “Materiel Requirements,” April 30, 1997; establish policies
           and procedures for the Joint Capabilities Integration and Development
           System process; govern the acquisition of Army materiel to satisfy approved
           Army requirements; implement Army acquisition policy for preparing
           materiel requirements documents; and assign responsibilities to Army
           organizations. In addition, Army Regulation 71-32, “Force Development and
           Documentation - Consolidated Policies,” March 3, 1997, prescribes policies
           for developing the basis-of-issue plan and the table of organization and
           equipment.

           Chairman of the Joint Chiefs of Staff Instruction 3170.01F. The Joint
           Capabilities Integration and Development System process is initiated through
           a capability-based assessment that includes three phases.

                    •   The functional area analysis identifies operational tasks,
                        conditions, and standards needed to accomplish objectives.

                    •   The functional needs analysis assesses the ability of current and
                        programmed capabilities to accomplish the tasks identified in the

5
    Chairman of the Joint Chiefs of Staff Instruction 3170.01C “The Joint Capabilities Integration and
    Development System,” June 24, 2003, replaced Chairman of the Joint Chiefs of Staff
    Instruction 3170.01B “Requirements Generation System,” April 15, 2001.



                                                    6
           functional area analysis. The end product of the functional area
           analysis and functional needs analysis is a list of capability gaps.

       •   The functional solutions analysis evaluates solutions from an
           operational perspective and results in a list of potential need-
           based solutions.

The results of the capability-based assessment are documented in an initial
capability document. The Service or agency responsible for acquiring the
weapon system then develops a capabilities development document that
describes the technical approach to meet the needed capability and a
capability production document that describes the actual performance of the
system that will go into production. The Service or agency submits the
capability document to the Joint Requirements Oversight Council, which
validates and approves the capability documents for defense acquisition
programs before program milestone decision points, such as program
initiation.

Army Regulation 70-1. Army Regulation 70-1 requires the Army Deputy
Chief of Staff, G-3/5/7, (formerly the Army Deputy Chief of Staff G-3) to
develop Army policy and guidance for materiel requirements and combat
development programs, to include the operational requirements generation
process. It requires the Army Deputy Chief of Staff, G-3/5/7, to validate and
integrate the review and evaluation of materiel requirements for all
acquisition category programs; define and validate capability goals, materiel
objectives, overall force structure design, and basis-of-issue plans; and
approve the table of organization and equipment and basis-of-issue plan.
Army Regulation 70-1 further states that all Army acquisition programs,
regardless of the acquisition category, will be managed by a program or
project manager. The designation of a program or project manager will be
made no later than a program’s system development and demonstration
decision point in the acquisition process.

Army Regulation 71-9. Army Regulation 71-9 states that the requirements
determination process will provide an existing and future Army capable of
success in any contingency. The process will be responsive to the urgent
materiel requirements of the deployed warfighter. It also states that field
commanders will document and submit their urgent warfighting operational
requirements in an ONS. The Army Deputy Chief of Staff, G-3/5/7,
validates and approves field commanders ONSs. Army Regulation 71-9
states that the ONS provides an opportunity to the field commander to
initiate the requirements determination process. It further states that all
ONSs will be reviewed by the combat developer or training developer to
determine applicability to future requirements or continuing need for which a
standard requirement (capability document) and acquisition is needed.

Army Regulation 71-32. Army Regulation 71-32 requires the Army Force
Management Support Agency to develop and coordinate the basis-of-issue
plan for an acquisition program and to submit it to Headquarters Department
of the Army for approval. It states that basis-of-issue plans are developed for
new or improved items of equipment and are used to plan and manage the


                                   7
    introduction of developmental and nondevelopmental items of equipment.
    The materiel developer prepares and submits the basis-of-issue plan feeder
    data to initiate development of the basis-of-issue plan. In addition, basis-of-
    issue plans are source documents for changes to the table of organization and
    equipment. Further, Army Regulation 71-32 states that the basis-of-issue
    plan feeder data is a compilation of information about a new or improved
    item of equipment such as capabilities, intended use, basis of issue, and
    support requirements. The materiel developer summarizes information
    obtained from valid requirements and prepares and submits the basis-of-issue
    plan feeder data to the Army Force Management Support Agency to develop
    the basis-of-issue plan.

    Army Regulation 71-32 requires the Army Force Management Support
    Agency to develop modification tables of organization and equipment by
    applying the appropriate incremental change packages and basis-of-issue
    plans to achieve a unit’s level of modernization. The Army approved table of
    organization and equipment prescribes the unit organization, personnel, and
    equipment necessary to perform an assigned mission and requires
    Headquarters Department of the Army approval.


Generating Armor Requirements
    The Army Training and Doctrine Command validated a requirement for
    armor crew protection for the FMTV in the ORD for the Tactical Wheeled
    Vehicle Crew Protection Kit, January 19, 1996. As stated in the background
    section of this report, the Government Accountability Office reported that the
    Army developed the 1996 ORD for armor kits for tactical wheeled vehicles
    in response to Army operations in Haiti, Rwanda, and Somalia that exposed
    troops to threats from small arms fire, artillery and mortar fire, and mines.
    However, the need for armor kits after the operations in Somalia did not
    materialize until operations in Iraq. Army representatives stated that the
    Army did not fund or fill the armor kit requirements contained in the ORD
    because of other higher funding priorities in the Army.

    The FMTV Joint Service Operational Requirement document, June 1991,
    was updated in 1997 and 2002 and reformatted as an ORD in 2003. The
    FMTV Joint Service Operational Requirement document and the ORD
    included crew protection against small arms fire and a 152-millimeter gun as
    an essential characteristic or objective requirement.

    The Army filled theater commander urgent needs for armor kits for FMTVs
    to support the Global War on Terror by using the ONS process as a result of
    not having a program office to manage armor kit requirements for medium
    tactical vehicles. In December 2004, in recognition of the continuing need
    for armor kits, the Secretary of the Army established the Army Armor Task
    Force to provide increased management of the armoring effort. The Army
    Training and Doctrine Command developed the Army Tactical Wheeled
    Vehicle Long-Term Armoring Strategy (LTAS) in June 2005, to baseline
    armor requirements for tactical wheeled vehicles. In addition, the Army
    Training and Doctrine Command began preparing documentation for the



                                       8
           Joint Capabilities and Development System to update medium tactical
           vehicle armor kit requirements.

           Operational Needs Statements for Armor Kits. The ONS process
           effectively identified, validated, and funded theater commander armor kit
           urgent needs. However, because the armor kits were funded through the
           ONS process, the contractor had to purchase lead-time materials and restart
           the production line to begin fulfilling theater commanders’ urgent needs for
           armor kits. On January 29, 2007, the Army Deputy Chief of Staff, G-3/5/7,
           validated updated theater requirements for additional armor kits for medium
           tactical vehicles to support the surge of five Brigade Combat Teams into the
           Central Command area of responsibility.

           To fully define the requirement for additional armor kits, the Army Deputy
           Chief of Staff, G-3/5/7, directed the Army Central Coalition Forces Land
           Component Command G-3 staff to submit an ONS no later than March 16,
           2007, requesting validation of the quantities of armor kits needed. On
           February 2, 2007, the Army Central Coalition Forces Land Component
           Command G-3 staff submitted a consolidated ONS for * armor kits for
           medium and heavy tactical vehicles, of which ∗ were for medium tactical
           vehicles, to support force adjustments in the Central Command area of
           responsibility. On August 16, 2007, the Army Deputy Chief of Staff,
           G-3/5/7, validated the consolidated ONS for a total of ∗ armor kits, of
           which ∗ armor kits for medium tactical vehicles.6 As of August 2007, the
           total validated requirement for armor kits for medium tactical vehicles in
           Central Command area of responsibility was ∗ , of which ∗ 7 were for
           FMTVs and ∗ 8 were for the M900 series of medium tactical vehicles.

           Army Armor Task Force. The Army formed the Army Armor Task Force
           in December 2004, to determine a comprehensive armoring strategy for all
           Army vehicles. A representative of the Army Deputy Chief of Staff, G-8,
           co-chair of the Army Armor Task Force, stated that the Army formed the
           Army Armor Task Force to address armor issues for tactical wheeled
           vehicles in support of Operation Iraqi Freedom and Operation Enduring
           Freedom. The mission of the Army Armor Task Force was to ensure that all
           Army activities were in sync and kept informed of requirements, resourcing
           solutions, and distribution schedules. The representative stated that after the
           initial armor requirements were met through the ONS process, the Army
           Armor Task Force discontinued meeting in September 2006. The
           representative further stated that the Army Armor Task Force reconvened in
           January 2007, when additional armor kit requirements were identified
           through the ONS process to support the troop level adjustments. As of

6
     ∗ of the ∗ armor kits were for FMTVs; the remaining 8 armor kits were for the M900 series
    medium tactical vehicles. The remaining ∗ armor kits were for heavy tactical vehicles.
7
    The March 2005 requirement of ∗ armor kits plus the August 16, 2007, requirement of   ∗
    armor kits for the FMTV equals the ∗ total armor kits.
8
    The 2005 requirement of ∗ armor kits plus the August 16, 2007, requirement of ∗ armor kits for
    the M900 series of medium tactical vehicles equals the ∗ total armor kits.
∗
    For Official Use Only information omitted.



                                                  9
           November 2007, the Army Armor Task Force was still reviewing strategies
           for the distributing of armor kits in the future but had yet to finalize or
           document a plan for the distribution of armor kits. To ensure the Army is
           ready for future operations, the Army Armor Task Force needs to finalize
           and document its plan for the distribution of armor kit requirements.

           Tactical Wheeled Vehicle Long-Term Armoring Strategy. On June 1,
           2005, the Capability Manager, Transportation at the Headquarters Army
           Training and Doctrine Command issued the LTAS. The LTAS established
           baseline requirements for the preinstalled armor components (‘A’ armor kits)
           and fixtures that will facilitate add-on armor (‘B’ armor kits) for tactical
           wheeled vehicles. To prepare the LTAS, the Capability Manager,
           Transportation used the Army Forces Generation Model to determine the
           number of ‘A’ and ‘B’ armor kits required for the future.9 The results of the
           model indicated that the Army will need to procure enough ‘B’ armor kits to
           outfit approximately ∗ percent of the future modular tactical wheeled vehicle
           fleet to cover operational requirements, including Army pre-positioned stock
           unit sets, training requirements, exportable training capability, and spares.
           For the FMTV, the results of the model recommended that the Army procure
           a total of ∗ ‘B’ armor kits. The ‘B’ armor kits would be located at:

                    •   contingency response units,

                    •   all forward deterrence areas,

                    •   Army pre-positioned stock locations,

                    •   the Directorate of Logistics at unit home stations,

                    •   the home station for local unit training,

                    •   combat training centers,

                    •   Army Materiel Command depots,

                    •   mobilization sites and equipment concentration sites (Army
                        Reserve), and

                    •   maneuver area training equipment sites (National Guard).

           However, the LTAS did not identify the number of FMTV ‘B’ armor kits that
           should be at each location.



9




                                               ****

                                           .
∗
    For Official Use Only information omitted.



                                                 10
           The Capability Manager, Transportation originally forwarded the LTAS for
           approval from Headquarters, Department of the Army through the Army
           Requirements and Resourcing Board. According to Headquarters,
           Department of the Army, G-8, representatives the LTAS should have been
           briefed with Headquarters, Department of the Army G-3/5/7, for approval.
           In addition, the Deputy Capability Manager, Transportation stated that the
           initial LTAS requirements are valid only until a formal requirements
           document is developed. In a January 10, 2008, memorandum, the Chief,
           Current and Future Warfighting Capabilities Division, stated that on
           December 11, 2007, the Army Resource and Requirements Board decided to
           procure ∗ LTAS B-armor kits to replace armor on all FMTVs currently in
           theater

           Joint Capabilities Integration and Development System. As armor kit
           requirements grew in support of the Global War on Terror, the Army
           Training and Doctrine Command recognized the need to update armor kit
           requirements for medium tactical vehicles through the Joint Capabilities
           Integration and Development System. As stated in the Background section
           of the report, the primary objective of the Joint Capabilities Integration and
           Development System process is to ensure joint warfighters receive the
           capability required to successfully execute the missions assigned to them.

           Capability-Based Assessment Process. In May 2005, the Army Training
           and Doctrine Command approved the Army Transportation functional area
           analysis and the following November, the Army Transportation Tactical
           Wheeled Vehicle functional needs analysis. In addition, the Army Combined
           Arms Support Command prepared a draft medium truck functional solutions
           analysis dated June 19, 2007. The draft recommended that the Army provide
           priority protection systems for medium trucks to include design and
           installation of ‘A’ and ‘B’ armor kits. In addition, the draft recommended
           that the Army include protection and survivability requirements in future
           capability production documents for the medium truck. Although the three
           analyses were prepared to support the development of a capability production
           document for the tactical wheeled vehicle crew and passenger protection kit,
           the analyses could support the preparation of either a capabilities
           development document or a capability production document.

           Draft Capability Production Document. The Army Training and Doctrine
           Command Capability Manager, Transportation prepared a draft capability
           production document for the tactical wheeled vehicle crew and passenger
           protection kit dated April 26, 2007, to support a production decision for the
           kits. If approved, the capability production document would supersede the
           armor kit requirements in the 1996 ORD. The draft specified that all current
           and future tactical wheeled vehicles would be capable of accepting add-on
           armor solutions, but it did not require that all vehicles would be armored at
           all times. The draft established a requirement for two levels of protective
           kits, as called for in the armor strategy contained in the LTAS. In
           November 2007, the Deputy Capability Manager, Transportation stated that

∗
    For Official Use Only information omitted.



                                                 11
    its staff stopped work on the draft capability production document for the
    tactical wheeled vehicle crew and passenger protection kit.

    In November 2007, a representative for the Army Deputy Chief of Staff, G-8,
    stated that Army Training and Doctrine Command will incorporate armor
    requirements into existing medium tactical vehicle programs capability
    documents instead of establishing a new armor program for tactical wheeled
    vehicle crew and passenger protection kits. The Deputy Capability Manager,
    Transportation stated that current program requirements documents will be
    updated to incorporate armor protection. The Deputy Capability Manager
    also stated that the FMTV ORD can be updated for armor protection
    requirements and converted into a capabilities development document and a
    capability production document. Accordingly, the Army Training and
    Doctrine Command staff needs to update the FMTV ORD to incorporate
    current armor protection requirements and armor kit quantities.


Distribution of FMTV Armor Kits
    By not completing the Joint Capabilities Integration and Development
    System process, the Army did not timely complete actions to add armor kit
    requirements to the basis-of-issue plan and table of organization and
    equipment for FMTVs and complete an analysis for the future distribution of
    armor kits for medium tactical vehicles.

    Basis-of-Issue Plan Feeder Data. Because the Army Training and Doctrine
    Command did not update requirements documents through the Joint
    Capabilities Integration and Development System, the Project Manager
    Tactical Vehicles could not take action to update the basis-of-issue plan
    feeder data to enable implementation of LTAS. The Army uses basis-of-
    issue plans to manage the introduction of items of equipment, by national
    stock numbers, issued to Army units. In April 2007, the Project Manager
    Tactical Vehicles stated that as a result of the LTAS, the program office will
    prepare an engineering change proposal upgrade for the FMTV and request a
    new line item number and national stock number for the FMTV. On May 30,
    2007, the Transportation Branch Chief in the Office of the Army Deputy
    Chief of Staff, G-8, directed the Chief of Logistics for the Medium Branch in
    the Office of the Project Manager Tactical Vehicles to incorporate new line
    item numbers for medium tactical vehicles with the armor kits in the basis-
    of-issue plan feeder data. New line item numbers for the FMTV ‘A’ armor
    kit vehicles and for FMTV ‘B’ armor kits are required because only some of
    the FMTVs would get ‘B’ armor kits. Further, the Transportation Branch
    Chief stated in the direction that if the FMTV with ‘B’ armor kits did not
    have their own line item number, they would be very difficult to track,
    account for, and maintain. Representatives for the Project Manager Tactical
    Vehicles stated that they cannot start the basis-of-issue plan until the
    Capability Manager, Transportation updates the FMTV capability document.

    Update of the Basis-of-Issue Plan and the Modification Table of
    Organization and Equipment. Representatives from the U.S. Army Force
    Management Support Agency had not begun updating the basis-of-issue plan
    and modification table of organization and equipment for FMTV armor kits.


                                      12
    In addition, the representatives stated that they planned to update the
    basis-of-issue plan and the modification table of organization and equipment
    for FMTVs with armor kits when they receive the basis-of-issue plan feeder
    data from the Project Manager Tactical Vehicles.


Conclusion
    The Army satisfied theater commanders’ urgent needs for armor kits for
    FMTVs through the ONS process. However, the Army may not have had to
    rely on the ONS process had the Army funded, developed, tested, and fielded
    armor kit solutions in accordance with approved requirements in either the
    1991 FMTV Joint Service ORD or the 1996 Tactical Wheeled Vehicle Crew
    Protection Kit ORD. Commanders could have adjusted numerical
    requirements as necessary to meet operational requirements and to modify
    ballistic protection requirements based on evolving threats. Accordingly, the
    Army needs to expedite the completion of the Joint Capabilities Integration
    and Development System documentation to address approved tactical
    wheeled vehicle capability gaps. Fulfilling the FMTV armor kit
    requirements in the Army Tactical Wheeled Vehicle LTAS and in the 2003
    FMTV ORD is essential to making sure that theater commanders have
    sufficient armored FMTVs available at the start of future operations.


Management Comments on the Report and Audit Response
    Summaries of management comments on the report and audit responses are
    in Appendix C.


Recommendations, Management Comments, and Audit
  Response
    Revised Recommendation. In his comments on Recommendation 3. in the
    draft report, the Deputy Commander, U.S. Army Force Management Support
    Agency, responding for the Commander, U.S. Army Force Management
    Support Agency, stated that although the process to update the basis-of-issue
    plan was implicit in the recommendation, it should be rewritten to clarify the
    process for updating the basis-of-issue plans. We revised
    Recommendation 3. for clarity as the Deputy Commander suggested.

    1. We recommend that the Commander, Army Training and Doctrine
    Command and the Army Deputy Chief of Staff, G-3/5/7, complete a
    capabilities development document or a capability production document
    for armor kit requirements for the Family of Medium Tactical Vehicles
    and submit it to the Joint Requirements Oversight Council for approval
    in accordance with Chairman of the Joint Chiefs of Staff



                                      13
Instruction 3170.01F, “Joint Capabilities Integration and Development
System,” May 1, 2007.

Army Training and Doctrine Command Comments. The Director,
Internal Review and Audit Compliance, responding for the Commander,
Army Training and Doctrine Command (the Command), concurred with the
recommendation. She stated that the Command will include protection and
armoring requirements in all tactical wheeled vehicle Joint Capabilities
Integration and Development System documentation as part of the
Command’s Long-Term Protection Strategy. Further, the Director stated that
the Command intends to convert the 2003 FMTV ORD into a capabilities
development document and a subsequent capability production document
that will include armoring and other protection requirements as part of the
protection key performance parameter. In addition, she stated that the Long-
Term Protection Strategy includes a schedule for updating these documents
with FMTV armor requirements beginning in the fourth quarter of FY 2008.
The Director stated that developing a separate capabilities development
document or capability production document solely for FMTV armor kits
would be duplicative. She stated that including protection in the base
requirements document will result in more effective protection solutions and
reduce the time needed to obtain approval from the Joint Requirements
Oversight Council.

In addition, the Director stated that in January 2008, the Command’s Army
Capabilities Integration Center tasked the U.S. Army Combined Arms
Support Command to develop an overarching Long-Term Protection Strategy
for tactical wheeled vehicles that addresses doctrine, organization, training,
materiel, leadership and education, personnel, and facilities. It will update
the LTAS, to include addressing the logistics actions of handling, fielding,
and storing armor B-kits. She also stated that the Long-Term Protection
Strategy will convert “older” tactical wheeled vehicle requirements to Joint
Capabilities Integration and Development System requirement documents for
all tactical wheeled vehicle fleets. The Director stated that once completed,
the Army Force Management Support Agency would be able to prepare
basis-of-issue plans and update tables of organization and equipment. She
stated that these actions will result in acquisition actions to procure armor
kits for all tactical wheeled vehicles, to include the FMTV.

Army Deputy Chief of Staff, G-3/5/7 Comments. The Director,
Capabilities Integration, Prioritization, and Analysis, responding for the
Army Deputy Chief of Staff, G-3/5/7, concurred with the recommendation.

Audit Response. The Director, Internal Review and Audit Compliance
comments and the Director, Capabilities Integration, Prioritization, and
Analysis comments were responsive to the recommendation.

2. We recommend that the Assistant Secretary of the Army
(Acquisition, Logistics, and Technology) and the Army Deputy Chief of
Staff, G-8; as Co-Chairs of the Army Armor Task Force, finalize their
analysis and document distribution plans for armor kits for medium
tactical vehicles identified in the Long-Term Armor Strategy and submit
the results to the Army Deputy Chief of Staff, G-3/5/7, for validation in



                                  14
accordance with Army Regulation 70-1, “Army Acquisition Policy,”
December 31, 2003.

Assistant Secretary of the Army (Acquisition, Logistics, and Technology)
Comments. The Deputy Director Soldier, Maneuver and Sustainment
Systems, responding for the Assistant Secretary of the Army (Acquisition,
Logistics, and Technology) concurred with the recommendation. He stated
that the Assistant Secretary of the Army (Acquisition, Logistics, and
Technology) would support the Army Deputy Chief of Staff, G-8, in
developing distribution plans for the armor kits.

Army Deputy Chief of Staff, G-8, Comments. We did not receive
comments on the draft report from the Army Deputy Chief of Staff, G-8.

Audit Response. The Deputy Director Soldier, Maneuver and Sustainment
Systems comments were responsive to the recommendation and we do not
require further comments from him. However, because we did not receive
comments to the draft report from the Army Deputy Chief of Staff, G-8, we
request that he provide comments to the final report by June 6, 2008.

3. We recommend that the Commander, Army Force Management
Support Agency develop or update as required the basis-of-issue plans
and applicable tables of organization and equipment for armor kits for
medium tactical vehicles upon receipt of the complete basis-of-issue plan
feeder data from the Project Manager Tactical Vehicles in accordance
with Army Regulation 71-32, “Force Development and Documentation -
Consolidated Policies,” March 1997.

Army Force Management Support Agency Comments. The Deputy
Commander, U.S. Army Force Management Support Agency concurred with
the recommendation. However, he suggested that the recommendation be
clarified to state that the U.S. Army Force Management Support Agency will
develop or update as required the basis-of-issue plans and applicable tables
of organization and equipment upon receipt of the complete basis-of-issue
feeder data from the Project Manager Tactical Vehicles.

Audit Response. The Deputy Commander, U.S. Army Force Management
Support Agency, comments were responsive to the recommendation and no
further comments are required. We revised the recommendation for
clarification as he suggested.




                                 15
Appendix A. Scope and Methodology (U)
   We conducted this performance audit from March 2007 through
   January 2008 in accordance with generally accepted government auditing
   standards. Those standards require that we plan and perform the audit to
   obtain sufficient, appropriate evidence to provide a reasonable basis for our
   findings and conclusions based on our audit objectives. We believe that the
   evidence obtained provides a reasonable basis for our finding and
   conclusions based on our audit objectives.

   We evaluated the process the Army used to determine current and future
   operational requirements for armored kits for the FMTVs and whether an
   adequate number of armor kits was procured to satisfy user requirements. In
   addition, we determined why the Army did not award contract orders for
   additional armor kits between September 2005 and February 2007.

   We reviewed documentation and information dated from June 1991 through
   November 2007. Specifically, we reviewed the following:

      •   FMTV Joint Service Operational Requirement, June 1, 1991;

      •   ORD for the Tactical Wheeled Vehicle Crew Protection
          Kit, January 19, 1996;

      •   ORD for the FMTV, April 28, 2003;

      •   urgent needs statement for FMTV armor kits, October 14, 2003;

      •   ONSs for armor kits for medium tactical vehicles;

      •   contracts W56HZV-04-C-0297 and W56HZV-04-C-0321 with
          Radian Incorporated for armor kits for FMTVs;

      •   contracts 56HZV-04-C-0591, DAAE07-03-C-S023, and
          W56HZV-07-C-A500 with Stewart and Stevenson Tactical Vehicle
          Systems for FMTV LSACs;

      •   Army’s Final Plan for Tactical Wheeled Vehicle Long Term
          Armoring Strategy, June 2005;

      •   draft tactical wheeled vehicle capability production document;

      •   Army Transportation Tactical Wheeled Vehicle Functional Area
          Analysis; May 24, 2005;

      •   Army Transportation Functional Needs Analysis, November 3, 2005;

      •   draft Medium Truck Functional Solutions Analysis, June 19, 2007;
          and

      •   a listing of armored medium tactical vehicles in the Central
          Command area of responsibility.


                                     16
    We also contacted staffs at Army Deputy Chief of Staff, G-3/5/7; Army
    Deputy Chief of Staff, G-8; Army Central Coalition Land Forces Component
    Command; Army Training and Doctrine Command; Army Armor Task
    Force; and Army Force Management Support Agency to obtain background
    information on armor kits, the process for determining and filling armor kit
    requirements, and the reason the Army did not contract for additional armor
    kits between September 2005 and February 2007. In addition, we contacted
    the Theater Property Book Officer to determine the number of armored
    medium tactical vehicles in the Central Command area of responsibility.

    To accomplish the audit objectives, we reviewed:

       •   Chairman of the Joint Chiefs of Staff Instruction 3170.01F, “Joint
           Capabilities Integration and Development System,” May 1, 2007, to
           determine the policies and procedures for the Joint Capabilities
           Integration and Development System process;

       •   Army Regulation 70-1, “Army Acquisition Policy,” December 31,
           2003, to determine Army acquisition policy that governs the
           acquisition of Army materiel to satisfy approved Army requirements;

       •   Army Regulation 71-9, “Materiel Requirements,” April 30, 1997, to
           determine how the Army identifies and determines materiel
           warfighting requirements; and

       •   Army Regulation 71-32, “Force Development and Documentation -
           Consolidated Policies,” March 3, 1997, to determine Army policies
           for development of the basis-of-issue plan and the table of
           organization and equipment.

    Use of Computer-Processed Data. We did not use computer-processed
    data to perform this audit.

    Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This
    report provides coverage of the DoD weapons system acquisition high-risk
    area.


Prior Coverage
    During the last 5 years, the Government Accountability Office and the
    Department of Defense Inspector General have issued two reports that
    discussed Army truck armor and family of medium tactical vehicle issues.
    Unrestricted Government Accountability Office reports can be accessed over
    the Internet at http://www.gao.gov. Unrestricted DoD Inspector General
    reports can be accessed over the Internet at
    http://www.dodig.mil/audit/reports.




                                     17
Government Accountability Office
    Government Accountability Office Report No. GAO-06-160, “Defense
    Logistics: Several Factors Limited Production and Installation of Army
    Truck Armor during Current Wartime Operations,” March 2006


DoD Inspector General
    DoD Inspector General Report No. D-2008-038, “The Army’s Procurement
    and Conditional Acceptance of Medium Tactical Vehicles,” December 21,
    2007




                                     18
Appendix B. Glossary
   Army Armor Task Force. The following personnel and organizations
   participate in the Army Armor Task Force:

          •   Deputy Chief of Staff, G-8, Focused Logistics Division, co-chair;

          •   Assistant Secretary of the Army (Acquisition, Logistics, and
              Technology), co-chair;

          •   Deputy Chief of Staff, G-3/5/7, Operations;

          •   Deputy Chief of Staff, G-4, Logistics;

          •   Army Materiel Command;

          •   Army Field Support Command;

          •   Army Central Coalition Forces Land Component Command;

          •   Army Forces Command;

          •   FMTV Program Manager; and

          •   Army Test and Evaluation Center.

   Basis-of-Issue Plan. Basis-of-issue plans are requirements documents that
   state the planned placement of quantities of new equipment and associated
   support items of equipment and personnel. In addition, basis-of-issue plans
   identify mission essential wartime requirements for inclusion in
   organizations based on changes of doctrine, personnel, or materiel. They
   also are source documents for changes to the Army table of organization and
   equipment, Army table of distribution and allowances, and joint tables of
   allowances.
   Capabilities Development Document. The capabilities development
   document is the sponsor’s primary means of defining authoritative,
   measurable, and testable capability needed by the warfighter to support the
   system development and demonstration phase of an acquisition program.
   The capabilities development document captures the information necessary
   to deliver an affordable and supportable capability using mature technology
   within one or more increments of an acquisition strategy.
   Capability Production Document. The capability production document
   captures the information necessary to support production, testing, and
   deployment of an affordable and supportable increment within an acquisition
   strategy. The capability production document provides the operational
   performance attributes necessary for the acquisition community to produce a
   single increment of a specific system. It presents performance attributes,



                                    19
including key performance parameters, to guide the production and
deployment of the increment.
Crew and Passenger Protection Kit. The crew and passenger protection kit
is an armoring solution that provides tactical wheeled vehicles the capability
to accept add-on armor solutions without needing to be fully armored all of
the time. The crew and passenger protection kit involves the following two
components.
       •   ‘A’ armor kits. The ‘A’ armor kit includes the mounting
           provisions permanently integrated into the FMTV vehicle to
           support the installation of the ‘B’ armor kit. It also includes hard-
           to-install armor sections such as floor plates and firewalls. ‘A’
           armor kits will be permanently installed at factories for new
           production FMTVs and at facilities recapitalizing existing
           FMTVs.
       •   ‘B’ armor kits. The ‘B’ armor kit consists of the actual add-on
           armor modular components or panels. When the ‘B’ armor kit is
           no longer required on the tactical wheeled vehicle because of the
           mission or threat environment, it can be removed and stored for
           reuse. Future ‘B’ armor kit solutions are to be compatible with
           current ‘A’ armor kits to ensure seamless transition from one
           solution to another. The goal is to replace existing heavy metal
           armor with lighter weight materials such as ceramics and
           composites.
Incremental Change Package. An incremental change package is a
doctrinally sound grouping of personnel and equipment change documents
that are applied to a base or intermediate table of organization and equipment
to form a new intermediate or objective table of organization and equipment.
Modification Table of Organization and Equipment. The modification
table of organization and equipment is an authorization document that
prescribes the modification of a basic table of organization and equipment
necessary to adapt it to the needs of a specific unit or type of unit and to
perform an assigned mission in a specific environment.
Operational Needs Statement. An ONS is used by field commanders to
identify an urgent need for a materiel solution to correct a deficiency or to
improve a capability that affects mission accomplishment. The Army Deputy
Chief of Staff will determine the validity of the need, availability of
technology, and source of resources to fill this requirement. Combat
developers, training developers, and materiel developers review all ONSs to
determine the applicability to future requirements or continuing need for
which a capability document and acquisition is needed.
Operational Requirements Document. The operational requirements
document is a formatted statement containing performance and related
operational performance parameters for the proposed concept or system. The
Joint Staff specified that operational requirements documents would be
accepted for review until late December 2003. After this date, only
operational requirements document updates/annexes, capability development
documents and capability production documents developed in accordance
with CJCSI 3170.01C will be accepted.


                                  20
Table of Organization and Equipment. The table of organization and
equipment is a document that prescribes the wartime mission, capabilities,
and organizational equipment requirements for military units.




                                 21
Appendix C. Management Comments on
            Report and Audit Response
           The Director, Capabilities Integration, Prioritization, and Analysis and the
           Director, Internal Review and Audit Compliance (Army Training and
           Doctrine Command) provided comments on the draft report. Summaries of
           those comments and our responses follow. The complete text of those
           comments is in the Management Comments section of this report.


Management Comments on the Overall Report and Audit
 Response
           The Director, Capabilities Integration, Prioritization, and Analysis
           commented on statements in the background section of the draft report.
           Specifically, he commented on paragraphs on “Joint Capabilities Integration
           and Development System” and “Additional Armor Kit Requirements to
           Support Force Adjustments in the Central Command Area of Responsibility.”

           Comments on the Joint Capabilities Integration and Development
           System. The Director, Capabilities Integration, Prioritization, and Analysis
           recommended that the paragraph describing the Joint Capabilities Integration
           and Development System include a synopsis of the information provided in
           Chairman of the Joint Chiefs of Staff Manual 3170.01C, May 1, 2007,
           Enclosure 1, paragraph 1.d. Paragraph 1.d states that the major outputs of a
           capabilities-based assessment are the functional area analysis to describe the
           mission area being assessed, the functional needs analysis to assess how well
           the current or programmed force performs that mission, and the functional
           solution analysis to analyze possible solutions to shortcomings in
           missionperformance.

           Audit Response. We identified those major outputs of a capabilities
           assessment in the Finding section of the report.

           Comments on the Additional Armor Kit Requirements to Support Force
           Adjustments in the Central Command Area of Responsibility. The
           Director commented that the numbers for armor kits and FMTVs in theater
           appear to be erroneous. The Director stated that, as of March 11, 2008, the
           Army Deputy Chief of Staff, G-3/5/7, had validated ∗ Radian Armor Cab
           Kits and Low Silhouette [Signature] Armor Cabs through two separate
           operational needs statements. In addition, he stated that the Army Deputy
           Chief of Staff, G-3/5/7; the Army Deputy Chief of Staff, G-8; and the
           Assistant Secretary of the Army (Acquisition, Logistics, and Technology)
           have reported a total requirement of ∗ armor kits to replace all armor kits
           on FMTV ( ∗ ) and M939 series cargo trucks ( ∗ ) in theater with ‘A’ and
           ‘B’ armor kits. The Director stated that, as of March 11, 2008, the Army had

∗
    For Official Use Only information omitted.



                                                 22
           shipped ∗ armor kits to theater. The Director provided two memorandums
           with his comments as the sources for the numbers he provided.

           Audit Response. We met with the Director’s suggested points of contact on
           March 31, 2008, to discuss the number of armor kits produced and the
           number of trucks in theater. At the meeting, agreement was reached that the
           users requested, in operational needs statements, ∗ armor kits to meet the
           requirements of the surge; however, the Chief, Future Warfighting
           Capabilities Division only validated a requirement for ∗ of the ∗ armor
           kits requested, to include ∗ for FMTV and ∗ for M900 series vehicles.
           Accordingly, we modified the report to state that the Army Deputy Chief of
           Staff, G-3/5/7, validated a need for ∗ armor kits.

           The Director’s points of contact agreed that the Army Deputy Chief of Staff,
           G-3/5/7, had validated a requirement for ∗ armored FMTV, instead of
            ∗ , and ∗ armored M900 series trucks for a total of ∗ armor kits.
           Because the points of contact agreed with those numbers as they appeared in
           the draft report, we did not change the report.


Management Comments on the Finding and Audit
 Response
           The Director, Capabilities Integration, Prioritization, and Analysis and the
           Director, Internal Review and Audit Compliance commented on the
           Operational Needs Statements for Armor Kits and the Conclusion paragraphs
           in the finding, respectively.

           Comments on the Operational Needs Statements for Armor Kits. The
           Director, Capabilities Integration, Prioritization, and Analysis restated the
           comment that he made on the Background section of the report concerning
           the “Additional Armor Kit Requirements to Support Force Adjustments in
           the Central Command Area of Responsibility” paragraph.

           Audit Response. Please see our response to the comments on “Additional
           Armor Kit Requirements to Support Force Adjustments in the Central
           Command Area of Responsibility.”

           Comments on the Conclusion. The Director, Internal Review and Audit
           Compliance recommended that the Conclusion paragraph be revised to read:
                    The Army satisfied theater commanders’ urgent needs for armor
                    kits for FMTVs through the ONS process. However, the Army
                    would not have had to rely on the ONS process had the Army
                    funded, developed, tested, and fielded armor kit solutions in
                    accordance with approved requirements in either (1) The 1991
                    FMTV Joint Service Operational Requirement Document (ORD),

∗
    For Official Use Only information omitted.



                                                 23
      or (2) The 1996 Tactical Wheeled Vehicle Crew Protection Kit
      (CPK) ORD. Numerical requirements could have been adjusted
      as necessary to meet operational requirements and ballistic
      protection requirements could have been modified base upon
      evolving threats. The Army needs to expedite the completion of
      the Joint Capabilities Integration and Development System
      documentation to address approved TWV [tactical wheeled
      vehicle] capability gaps.      Fulfilling the FMTV armor kit
      requirements in the Army Tactical Wheeled Vehicle Long Term
      Armoring Strategy (LTAS) and in the 2003 FMTV ORD is
      essential to making sure that theater commanders have sufficient
      armored FMTVs available at the start of future operations.

      In January 2008, the Army’s Training and Doctrine Command
      (TRADOC) Army Capabilities Integration Center (ARCIC)
      tasked the U.S. Army Combined Arms Support Command
      (CASCOM) to develop an overarching Long Term Protection
      Strategy (LTPS) for tactical wheeled vehicles that addresses
      doctrine, organization, training, materiel, leadership and
      education, personnel, and facilities. It will update the Long Term
      Armor Strategy, to include addressing the logistics actions of
      handling, fielding, and storing armor B-kits. The LTPS will also
      convert “older” TWV requirements (e.g., ROCs [Required
      Operational Capability], ORDs), to JCIDS requirement
      documents for all TWV fleets as required. Once completed, the
      Army Force Management Support Agency will be able to prepare
      basis-of-issue plans and update Tables of Organization and
      Equipment (TOE). These actions will result in acquisition actions
      to procure armor kits for all TWV, to include FMTV.

Audit Response. We modified the Conclusion paragraph to meet the intent
of the Director’s recommended changes.




                                     24
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman
  and Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform




                                       25
U.S. Army Deputy Chief of Staff, G-3/5/7
Comments




                       27
Final Report
 Reference




    Revised




               28
                                                      Final Report
                                                       Reference




                                                      Page 4
                                                      Revised




                                                      Page 9
                                                      Revised




∗
    For Official Use Only information omitted.

                                                 29
∗
    For Official Use Only information omitted.

                                                 30
31
∗
    For Official Use Only information omitted.

                                                 32
Assistant Secretary of the Army (Acquisition,
Logistics, and Technology) Comments




                       33
U.S. Army Training and Doctrine Command
Comments




                    34
     Final Report
       Reference




     Revised




35
36
U.S. Army Force Management Support Agency
Comments
                                            Final Report
                                             Reference




                                            Revised




                                            Page 12




                    37
38
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Acquisition and Contract Management produced this report. Personnel from the
Technical Assessment Directorate and Quantitative Methods Directorate,
Department of Defense Office of Inspector General, also contributed to the report.
Those personnel are listed below.

Richard B. Jolliffe
Bruce A. Burton
John E. Meling
Kevin W. Klein
James A. Hoyt
Michael Y. Kwan
Jillisa H. Milner
Report No. D-2008-089   May 9, 2008
